Follow-up Audit of USAID/El Salvador Housing
Project Under the Earthquake Reconstruction
Program

Audit Report No. 1-519-04-005-P

February 17, 2004




             San Salvador, El Salvador
February 17, 2004


MEMORANDUM
FOR:              USAID/El Salvador Director, Mark Silverman

FROM:             Regional Inspector General/San Salvador, Steven H. Bernstein

SUBJECT:          Follow-up Audit1 of USAID/El Salvador Housing Project Under the
                  Earthquake Reconstruction Program (Report No. 1-519-04-005-P)

This memorandum is our final report on the subject audit. In finalizing this report,
we considered your comments on our draft report and have included your response
in Appendix II.

This report contains two recommendations for your action. Based on your
comments, management decisions have been reached for these recommendations.
Determination of final action will be made by the Bureau for Management’s Office
of Management Planning and Innovation (M/MPI/MIC).

Once again, thank you for the cooperation and courtesy extended to my staff
throughout the audit.




1
    The previous audit was “Audit of the USAID/El Salvador-Financed Housing Reconstruction
    Activities” (Report No. 1-519-03-001-P), dated November 19, 2002.


                                                                                        1
(This page intentionally left blank.)




                                        2
           Summary of Results                                                       5
Table of
Contents   Background                                                                5

           Audit Objectives                                                          6

           Audit Findings                                                            6

                  Has USAID/El Salvador implemented Recommendation No. 1
                  from Audit Report No. 1-519-03-001-P dated November 19, 2002?      6

                  Were USAID/El Salvador’s housing reconstruction activities on
                  schedule to achieve planned outputs?                               7

                         Cooperative Housing Foundation’s Construction Activities
                         Were Delayed                                                8

           Management Comments and Our Evaluation                                    9

           Appendix I – Scope and Methodology                                       11

           Appendix II – Management Comments                                        13




                                                                                     3
(This page intentionally left blank.)




                                        4
Summary of   As part of its fiscal year 2004 audit plan, the Regional Inspector General/San
Results      Salvador performed this audit to determine whether USAID/El Salvador
             implemented Recommendation No. 1 from Audit Report No. 1-519-03-001-P and
             whether housing reconstruction activities were on schedule to achieve planned
             outputs (page 6).

             USAID/El Salvador implemented Recommendation No. 1 from Audit Report No.
             1-519-03-001-P by identifying environmental review activities and associating
             each activity with the organizations responsible for completing the activity. The
             Mission also set timeliness standards for those activities (page 6).

             Seven of USAID/El Salvador’s eight housing reconstruction activity
             implementers were on schedule to complete their planned houses by September
             30, 2004; however, the eighth implementer will have to significantly increase
             construction output to meet its target by the Mission’s stated deadline (page 7).

             Recommendations in the report include that USAID/El Salvador expedite the
             approval of beneficiaries and obtain a set of activities from CHF that could be
             used, if necessary, to limit delays caused by rain (pages 9).

             USAID/El Salvador agreed with the findings and recommendations presented in
             this report. The Mission committed to continue expediting the approval of the
             remaining houses and solicited mitigating activities from CHF (page 9).


Background   During the first two months of 2001, two powerful earthquakes struck El
             Salvador. According to a USAID/El Salvador publication, the earthquakes killed
             over 1,159 persons, wounded 8,122, and damaged or destroyed approximately
             276,000 houses. The disasters affected 1.5 million people or 25 percent of the
             country’s population.

             In May 2001, USAID/El Salvador started Phase I of its earthquake reconstruction
             program. Phase II began later in mid-2002 and was scheduled to end on
             September 30, 2004.2 In total, USAID/El Salvador planned to build 26,078
             houses under the program.

             During 2002, the USAID Office of Inspector General audited the first phase of the
             housing reconstruction program and issued Audit Report No. 1-519-03-001-P on
             November 19, 2002. The results from that audit identified that one implementer
             was delayed and a second was significantly delayed.

             2
                 The strategic objective grant agreement between USAID/El Salvador and the government of El
                 Salvador was originally set to expire on September 30, 2003, but was extended to September 30,
                 2004.


                                                                                                             5
                 The United States General Accounting Office conducted an audit in March 2003
                 and reported that Phase I housing reconstruction activities did not meet its initial
                 target completion dates.

                 As of September 30, 2003, USAID/El Salvador had obligated $99.2 million for
                 housing activities under both phases of the earthquake reconstruction program.
                 Accrued expenditures, as of the same date, were $60.5 million.

                 Construction progress as of October 31, 2003 is shown in the table below.

                 Table – 1 Housing reconstruction progress as of October 31, 2003

                           Implementers                  Houses          Houses           Total
                                                          Built         Remaining         Target
                  World Vision                                  325              0              325
                  Mercy Corps                                   693            307            1,000
                  Samaritan’s Purse                          2,198             551            2,749
                  Catholic Relief Services                      785            315            1,100
                  Salvation World Service Office                388            212              600
                  Save the Children                          1,133             667            1,800
                  CARE                                       2,609           1,300            3,909
                  FONAVIPO                                   3,947           4,303            8,250
                  Cooperative Housing Foundation             2,027           4,318            6,345
                                Total                       14,105          11,973           26,078



Audit            As part of its fiscal year 2004 audit plan, the Regional Inspector General/San
Objectives       Salvador performed this audit to answer the following questions:

                    •   Has USAID/El Salvador implemented Recommendation No. 1 from Audit
                        Report No. 1-519-03-001-P dated November 19, 2002?

                    •   Were USAID/El Salvador’s housing reconstruction activities on schedule
                        to achieve planned outputs?

                 Appendix I contains a discussion of the audit's scope and methodology.


Audit Findings   Has USAID/El Salvador implemented Recommendation No. 1 from Audit
                 Report No. 1-519-03-001-P dated November 19, 2002?

                 USAID/El Salvador implemented Recommendation No. 1 from Audit Report
                 No. 1-519-03-001-P dated November 19, 2002. That recommendation was as
                 follows:


                                                                                                   6
          We recommend that USAID/El Salvador implement timeliness
          standards with procedures and a clear statement of responsibilities
          for preparing and reviewing environmental assessments.

To implement the recommendation, USAID/El Salvador associated the
environmental activities with the organizations responsible for completing the
activities and set timeliness standards for those activities.

The Mission’s environmental review activities consisted of several procedures
carried out by a number of parties. Procedures included reviewing applications of
proposed sites, conducting site reviews, completing the assessments, and
obtaining approval. The parties involved included USAID/El Salvador, the U.S.
Army Corps of Engineers, and implementing partners. The Mission set 17 days
as the standard to complete the process and was using a control log to monitor the
progress of its environmental assessments.

Were USAID/El Salvador’s housing reconstruction activities on schedule to
achieve planned outputs?

Seven of USAID/El Salvador’s eight current housing reconstruction activity
implementers,3 were on schedule to complete their planned houses by September
30, 2004; however, the eighth implementer will have to significantly increase
construction output to meet its target by the Mission’s stated deadline.

The table below shows when implementers would finish building their houses, if
they continued to complete houses at their present rates.

Table 2 – Implementer construction rates and projected termination dates

             Implementers                  Number of       Houses               Projected
                                           houses built remaining as           completion
                                            per month    of 10/31/03           Month/Year
    Mercy Corps                                    129            307              Jan/2004
    Samaritan’s Purse                              121            551             Mar/2004
    Catholic Relief Services                         66           315             Mar/2004
    Salvation World Service Office                   41           212             Apr/2004
    Save the Children                              120            667             Apr/2004
    CARE                                           176          1,300             Jun/2004
    FONAVIPO                                       441          4,303             Aug/2004
    Cooperative Housing Foundation                 125          4,318             Sep/2006


3
    Construction of 4,661 houses under Phase I has ended. Current activity consisted of 13,167
    houses being built by seven implementers under Phase II and 8,250 houses being built by
    FONAVIPO. FONAVIPO’s target was not separated between Phase I and Phase II. The targets
    for Phase I, Phase II, and FONAVIPO total 26,078 houses.


                                                                                            7
The historical rate used in the analysis was the average number of houses built by
each implementer during the three months from August to October 2003. Key
assumptions for using average, historical construction rates from three recent
months included:

      •    Recent activity would accurately depict future capacity.

      •    Preliminary or start-up duties would no longer impact construction
           capacity.

This analysis indicated that housing reconstruction activities were on schedule
because several implementers were building houses at a faster pace than
necessary to meet a September 2004 deadline. However, the analysis also implied
that the program will not finish on schedule unless Cooperative Housing
Foundation more than triples its housing completion rate from 125 to 393 houses
per month.

Cooperative Housing Foundation’s
Construction Activities Were Delayed

Cooperative Housing Foundation (CHF) was not building houses at a pace that
would ensure it would build its planned houses to meet USAID/El Salvador’s
September 2004 deadline. Based on the analysis above, CHF would have 2,943
houses remaining to be built when the deadline arrives. CHF’s schedule delays
resulted from a more complicated and lengthy beneficiary approval process than
originally planned and from the impact of inclement weather.

Beneficiary approval – In a request to extend the term of its cooperative
agreement,4 CHF presented how changes to the beneficiary approval process
between Phase I and Phase II delayed the start of its construction activities. By
the end of October 2002, CHF had submitted nearly 1,000 beneficiaries to
USAID/El Salvador for approval. However, final approval was not received for
the first 1,000 beneficiaries until March 2003. From December 2002 to March
2003, CHF received only 283 final beneficiary approvals.

In its monthly report for November 2003, CHF reported that it had received final
approval for 4,025 beneficiaries. However, CHF still needed final approval for
703 beneficiaries – 258 of their applications were with the Instituto Libertad y
Progresso (ILP), the Salvadoran organization responsible for verifying land titles
and 445 had not yet been sent to the ILP for approval.5 Extended approval times,
4
    CHF requested a six month extension from December 31, 2003 to June 30, 2004. CHF was not
    alone in requesting extensions. Five of the other implementers also requested extensions to their
    Phase II cooperative agreements varying from two to six months.
5
    As of November 2003, the sum of the 4,025 approved beneficiaries and the 703 beneficiaries
    pending approval totaled 4,728. The 4,728 value included beneficiaries that had received their
    houses as well as 4,318 whose houses had not yet been built.

                                                                                                   8
             like those noted from December 2002 to March 2003 for the remaining 703
             beneficiaries, could cause CHF to delay the start of construction of these homes to
             the point where CHF would not be able to finish them before September 2004.

             The approval process included several organizations including CHF and the ILP.
             From its monitoring position, USAID/El Salvador could best identify actions
             needed to be completed by different organizations to obtain final approval.

                    Recommendation No. 1: We recommend that USAID/El
                    Salvador expedite the approval of Cooperative Housing
                    Foundation’s remaining beneficiaries by January 31, 2004.

             Inclement weather – Wet weather during the rainy season made some of CHF’s
             communities inaccessible. Many of the construction sites under the housing
             program were located in remote areas that did not have access via paved roads. If
             construction materials could not be moved to these sites, construction was
             delayed. The rainy season in El Salvador runs from around April to about
             October each year. At current production rates, CHF’s construction activities will
             overlap with the 2004 rainy season. Depending on the severity of the season,
             more construction delays could occur if alternative construction techniques were
             not developed or if materials were not pre-positioned.

                    Recommendation No. 2: We recommend that USAID/El
                    Salvador obtain from Cooperative Housing Foundation a set of
                    planned activities that could be used, if necessary, to limit
                    delays caused by rain.



Management   USAID/El Salvador agreed with the findings and recommendations presented in
Comments     this report. The Mission committed to continue expediting the approval of the
             remaining houses and has solicited mitigating activities from CHF. Accordingly,
and Our
             management decisions were made for the recommendations. The Mission’s
Evaluation   comments are included in their entirety in Appendix II.

             Three recommendations were made in the draft report. The second finding and
             recommendation from the draft report were deleted based on information that
             became available after the draft was issued. Recommendation No. 3 as discussed
             in USAID/El Salvador’s comments was renumbered in the final report as
             Recommendation No. 2.

             Determination of final action will be made by the Bureau for Management’s Office
             of Management Planning and Innovation (M/MPI/MIC).




                                                                                              9
(This page intentionally left blank.)




                                        10
                                                                                    Appendix I

Scope and     Scope
Methodology
              The Regional Inspector General/San Salvador conducted this audit in accordance
              with generally accepted government auditing standards.

              In planning and performing the audit, we assessed the effectiveness of
              management controls related to monitoring housing construction progress. The
              management controls identified included monitors and supervisors reporting
              results of field visits, construction forecasts, and data quality assessments.

              The housing activities under the earthquake reconstruction program were
              implemented by nine organizations. We conducted the audit at USAID/El
              Salvador and at the offices of the eight organizations which were building houses
              under Phase II of the program – Cooperative Housing Foundation, Catholic Relief
              Services, CARE, Salvation World Service Office, Mercy Corps, Samaritan’s
              Purse, Save the Children, and FONAVIPO. At these offices, we interviewed
              Mission and implementer officials and reviewed documents such as contracts,
              work orders, and construction schedules. We also traveled to implementer
              building sites to verify construction progress.

              According to USAID/El Salvador, the $99.2 million obligated for housing
              activities consisted of $17.8 million for Phase I, $50 million for Phase II, and
              $31.4 million for FONAVIPO.

              Audit fieldwork was conducted from October 27, 2003 through December 11,
              2003.

              Methodology

              To determine whether USAID/El Salvador implemented Recommendation No. 1
              from Audit Report 1-519-03-001-P dated November 19, 2002, we reviewed
              policies and procedures related to environmental assessments and examined the
              Mission’s monitoring log file.

              To determine whether housing construction implementers were on schedule, we
              verified the progress of houses under construction and houses completed that was
              being reported by USAID/El Salvador’s implementing partners and projected
              historical construction rates over the remaining number of houses for each
              implementer. Verifying progress included a statistical sample that used an
              expected error rate of five percent and was designed to provide 95 percent
              confidence with four percent precision. The resulting sample size was 118
              houses, out of 13,728, that were reported as under construction or completed as of




                                                                                             11
September and October 2003.6 We visited each of the houses from the sample to
note their progress.

To determine the significance of our findings, we considered the following:

    Opinion        Significance Criteria for                Significance Criteria for
                   Objective 1:                             Objective 2:
    Positive       Written timeliness standards             All of USAID/El Salvador
                   with procedures were developed           implementers were on schedule
                   by the Mission that clearly              as of 10/31/03 and had a
                   identify responsibilities for            pipeline of houses and
                   preparing and reviewing                  applicants in process to support
                   environmental assessments.               reaching the target (in total or
                                                            100 percent) by 9/30/04.
                   Identified individuals are aware
                   of and are performing their
                   responsibilities.

    Negative       Written timeliness standards             USAID/El Salvador did not have
                   with procedures were not                 a pipeline of houses and
                   developed by the Mission that            applicants in process to support
                   clearly identify responsibilities        reaching the target (in total or
                   for preparing and reviewing              100 percent) by 9/30/04.
                   environmental assessments.

    Qualified      Written timeliness standards             One or more USAID/El
                   with procedures were developed           Salvador implementers were not
                   by the Mission that clearly              on schedule as of 10/31/03 but
                   identify responsibilities for            had a pipeline of houses and
                   preparing and reviewing                  applicants in process to support
                   environmental assessments.               reaching the target (in total or
                                                            100 percent) by 9/30/04.
                   Identified individuals are not
                   aware of or are not performing
                   their responsibilities.




6
    We requested data as of the end of September. However, one implementer provided data as of
    the end of October because the organization maintained a single live database and did not have a
    hard copy of September’s results.

                                                                                                 12
                                                                                        Appendix II


Management
Comments

    Date:         January 30, 2004

    To:           Steven H. Bernstein, Regional Inspector General
                  San Salvador

    From:         Mark Silverman, Mission Director

    Subject:      Follow-up Audit of USAID/El Salvador Housing Activity under the Earthquake
                  Recovery Program (Report No.1-519-04-00X-P)

    USAID/El Salvador appreciates your efforts in reviewing our Housing Reconstruction Activity
    and your recommendations to expedite implementation of this important portion of the
    Earthquake Recovery Program.

    We agree with your recommendations and have discussed with CHF the implementation of the
    following actions in order to address your recommendations.

    Recommendation No. 1: We recommend that USAID/El Salvador expedite the approval of
    Cooperative Housing Foundation’s remaining beneficiaries by January 31, 2004.

    As of January 21, 2004, CHF had received final approval for 4,550 beneficiaries for a revised
    projected target of 4,851 houses. The 301 remaining beneficiaries are in the approval process.
    USAID will continue working closely with the Cooperative Housing Foundation (CHF), the
    Instituto Libertad y Progreso (ILP) and the US Army Corps of Engineers (USACE) to complete
    the socioeconomic, legal and environmental reviews in order to expedite the process and obtain
    the approval of these beneficiaries no later than March 31, 2004. This will allow six months for
    the construction of the remaining houses, considering that the target completion date of the
    Program is September 2004.

    Recommendation No. 2: Comments regarding this recommendation were deleted by the
    RIG/San Salvador.

    Recommendation No. 3: We recommend that USAID/El Salvador obtain from Cooperative
    Housing Foundation a set of planned activities that could be used, if necessary, to limit
    delays caused by rain.

    During February 2004, CHF will obtain a schedule from each contractor and NGO detailing the
    actions which will be taken by April 15, 2004, to limit delays. The schedules will address the
    following specific activities: 1) the work related to soil treatment, 2) the concrete foundations


                                                                                                  13
placement in all the houses, 3) the transportation of materials to the construction site of
communities with difficult access.

USAID concurs with these actions and believes that they will contribute to limiting delays
caused by the rain and will monitor their implementation.

USAID believes that the actions discussed above along with their respective time frames address
the intent of your recommendations, and request that you concur with our management decision.
Please advise.




                                                                                            14
